CERTIFICATE OF SERVICE
I hereby certify that a true and accurate copy of the Certiorari Petition in this
case, along with its attached Appendix, as well as a copy of Petitioner’s Motion to
Proceed In Forma Pauperis, along with its attachment, were all served pursuant to
Supreme Court Rules 29(3), (4)(a), and (5)(b) on this 16th Day of November, 2020,
via overnight FedEx delivery service, postage prepaid, upon the following persons:
Kimberly Robinson, Esq.
Office of the U.S. Attorney
303 Marconi Boulevard, Suite 200
Columbus, Ohio 43215
Counsel for Appellee / Respondent
(614) 469-5715
-andSolicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.,
Washington, DC 20530-0001
(202) 514-2203
I further certify that an electronic copy shall be sent to the following email
addresses:
Kim.Robinson@usdoj.gov
SupremeCtBriefs@usdoj.gov
SupremeCourtBriefs@usdoj.gov

Blake P. Somers (0078006)
Counsel for Petitioner China Hester

